                                             NATIONAL SCIENCE FOUNDATION
                                                    4201 Wilson Boulevard
                                                  ARLINGTON, VIRGINIA 22230




   •
                --.,
           r:      '
                        (
      ..                .


      -<)I.< r"        r.
           OFFICE OF
INSPECTOR GENERAL



MEMORANDUM

Date:                          MAR 4 - 2011
To:                         Mary F. Santonastasso, Director
                            Division of Institution and Award Support

                            Karen Tiplady, Director
                            Division of Grants    Agr

From:                       Dr. Brett M. Ral~~:::;;::::;,.c(U
                            Assistant InS'TloOr'1".PI'I'

Subject:                    Audit Report No. OIG-11-01-002
                            William Marsh Rice University


Attached is the final audit report, prepared by Mayer Hoffman McCann P.C., an independent
public accounting firm, on the audit of NSF Award Numbers EEC-0647452, DGE-0504425,
HRD-0450363, and OISE-0530220 awarded to William Marsh Rice University (Rice
University). The audit covers NSF-funded costs claimed from October 1,2004 to September 30,
2009, totaling approximately $13.8 million in costs claimed and $4 million in claimed cost share
for these four awards.

Rice University was selected for audit because of large amounts of NSF funding that are passed-
through to other organizations; high dollar value and number of NSF awards; collaborative
nature of many of the NSF awards; deficiencies reported in NSF's 2006 Desk Review and Rice
University'S past OMB Circular A-133 single audits; and because NSF is Rice University's
cognizant federal agency, responsible for ensuring that costs are claimed in accordance with NSF
and federal regulations.

Overall, the auditors determined that the costs claimed by Rice University and its subawardees
under the NSF award numbers EEC-0647452, DGE-0504425, HRD-0450363, and OISE-
0530220 appear fairly stated and are allowable, allocable, and reasonable for the NSF awards. In
addition, the issues and findings identified in NSF's 2006 Desk Review Report and Rice
University's 2007 and 2008 OMB Circular A-133 single audit reports, concerning the need to
improve accounting policies and equipment records, have been resolved. However, the auditors
 noted two compliance and internal control deficiencies in Rice University's financial and award
 management practice that could impact current and future NSF awards. Specifically:

     •    Rice University did not adequately monitor sub award costs, which included four
          subawards amounting to over $1.3 million in claimed costs. Although Rice University
          established written subaward monitoring policies and procedures prior to the fall of 2009,
         Rice University did not document the results of its risk assessments on potential
         subawardees at the pre-subaward stage. In addition, Rice University did not have a
         formal process that would provide risk assessments on subawardees on an on-going basis
         at the post-subaward stage and no rationale was documented to support the level of
         monitoring activities to be conducted on the subawardees. Rice University's policies and
         procedures should be strengthened to provide greater oversight in the post-subaward
         stage to ensure that the subaward costs claimed are reasonable, allowable, and allocable
         to its current and future NSF awards.

    •    Rice University did not fully comply with the reporting requirements of the Bayh-Dole
         Act and NSF for invention disclosure and patent application. The auditors reviewed the
         invention disclosures and patent applications of six inventions developed under NSF
         Award No. EEC-0647452. One invention was disclosed to NSF 104 days late and one
         provisional patent application did not indicate the NSF award number or NSF as the
         federal funding agency. Rice University has established policies and procedures on
         invention disclosure and patent application. However, due to personnel turnover and
         miscommunication between departments, the policies and procedures could not be
         effectively implemented to ensure compliance with the relevant provisions. As a result of
         the non-compliance, NSF may not have current information regarding all inventions and
         patents developed, which is important for evaluating award progress and reporting
         research highlights to Congress.

While we did not assess the impact of these noncompliance and internal control deficiencies on
Rice University's other NSF awards, we believe the same deficiencies may exist under those
programs and, if not corrected, could impact future NSF awards.

To address these compliance and internal control deficiencies, the auditors recommend that the
Director of NSF's Division of Institution and Award Support (DIAS) address and resolve the
following recommendations made to Rice University. It is recommended that Rice University
(1) develop and implement a formal on-going post-subaward risk assessment process, which will
include an on-going risk-based monitoring approach to better ensure that costs charged to NSF
awards are reasonable, allowable, and allocable; and (2) ensure that its revised policies and
procedures on invention disclosure and patent application are adequate, comply with NSF and
Federal regulations, and are properly implemented. In addition, Rice should take a proactive role
to educate research personnel on federal awards with potential inventions regarding the Bayh-
Dole Act and NSF invention reporting and disclosure requirements.

Rice University, in its response to the draft report dated January 25, 2011, generally agreed with
the findings,. but stated that, while there are areas for improvement in its subaward monitoring
processes, the University does not agree with the level of the finding as a significant deficiency,



                                                 2
because there were no questioned costs. Rice University listed specific post-award actions its
personnel can undertake to raise the level of subawardee oversight it performs and indicated it
was preparing new policies and procedures to inform personnel of when additional subawardee
monitoring activities are warranted. The University agreed with the Bayh-Dole finding, and is
revising its training to educate research personnel on the requirements. Rice University's
response is included in its entirely in Appendix A.

The findings should not be closed until NSF determines that all recommendations have been
adequately addressed and the proposed corrective actions have been satisfactorily implemented.

We are providing copies of this memorandum to the Office Director of the Office of
International Science and Engineering (OISE), the Division Director of Human Resources
Development (HRD) and Graduate Education ( DGE), and the Division Director of Engineering,
Education, and Centers (EEC). The responsibility for audit resolution rests with the Division of
Institution and Award Support, Cost Analysis and Audit Resolution Branch (CAAR).
Accordingly, we ask that no action be taken concerning the report's findings without first
consulting CAAR at 703-292-8244.


OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

      •   Reviewed Mayer Hoffinan McCann's approach and planning of the audit;
      •   Evaluated the qualifications and independence of the auditors;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with Mayer Hoffinan McCann and NSF officials, as
          necessary, to discuss audit progress, fmdings, and recommendations;
      •   Reviewed the audit report, prepared by Mayer Hoffinan McCann to ensure compliance with
          Government Auditing Standards; and
      •   Coordinated issuance of the audit report.

Mayer Hoffinan McCann is responsible for the attached auditor's report on Rice University and
the conclusions expressed in the report. We do not express any opiiUon on the Schedules of
Award Costs, internal control, or conclusions on compliance with laws and regulations.

We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact Jannifer Jenkins at 703-292-4996.

Attachment

cc:       Larry H. Weber, Office Director, ENG/OISE
          James H. Lightboume, Division Director, EHRIDGE and HRD
          Theresa Maldonado, Division Director, ENGIEEC




                                                3
           WILLIAM MARSH RICE UNIVERSITY
                  6100 MAIN STREET
                HOUSTON, TEXAS 77005

            NATIONAL SCIENCE FOUNDATION
                   AWARD NUMBERS
EEC-0647452; DGE-0504425; HRD-0450363 AND OISE-0530220

    FINANCIAL AUDIT OF FINANCIAL SCHEDULES AND
          INDEPENDENT AUDITORS’ REPORT
    FROM OCTOBER 1, 2004 TO SEPTEMBER 30, 2009




                               MAYER HOFFMAN McCANN P.C.
                               Certified Public Accountants
                               2301 Dupont Drive, Suite 200
                               Irvine, California 92612
                                   EXECUTIVE SUMMARY

The National Science Foundation (NSF) Office of Inspector General (OIG), engaged Mayer
Hoffman McCann P.C. to perform an audit on $13,858,056 in costs claimed as reported on the
September 30, 2009 Federal Financial Report (FFR) submitted to NSF by William Marsh Rice
University (“Rice University”) on NSF award numbers EEC-0647452, DGE-0504425, HRD-
0450363 and OISE-0530220 and $4,087,762 of claimed cost share for these awards.

Rice University, located in Houston, Texas, is a private not-for-profit higher education research
institution. As of September 2009, Rice University had approximately 203 active NSF awards
totaling over $109 million. Nineteen of those awards are funded at amounts over $1 million
each. Rice University was selected for audit because of large amounts of NSF funding that are
passed-through to other organizations; high dollar value and number of NSF awards;
collaborative nature of many of the NSF awards; deficiencies reported in NSF’s 2006 Desk
Review and Rice University’s past OMB Circular A-133 single audits; and because NSF is Rice
University’s cognizant federal agency, responsible for ensuring that costs are claimed in
accordance with NSF and federal regulations.

The purpose of this engagement was to determine whether the costs and cost share claimed by
Rice University and its subawardees for the NSF awards audited appear fairly stated in the
Schedules of Award Costs and to identify weaknesses in Rice University’s internal control over
financial reporting that could have a direct and material effect on Rice University’s ability to
properly administer, account for, and monitor its NSF awards. In addition, we were to determine
whether Rice University adequately monitors its subawardees and ensures that previously
identified audit recommendations have been satisfactorily addressed and implemented.

We determined that the costs and cost share claimed by Rice University and its subawardees
under the NSF award numbers EEC-0647452, DGE-0504425, HRD-0450363 and OISE-
0530220 appear fairly stated and are allowable, allocable, and reasonable for the NSF awards.
In addition, the issues/findings identified in NSF’s 2006 Desk Review Report and Rice
University’s 2007 and 2008 OMB Circular A-133 single audit reports, concerning the need to
improve accounting policies and equipment records, have been resolved. However, we noted
two compliance and internal control deficiencies in Rice University’s financial and award
management practice that could impact current and future NSF awards. Specifically:

   •   Rice University did not adequately monitor subaward costs, which included four
       subawards amounting to over $1.3 million in claimed costs. Although Rice University
       established written subaward monitoring policies and procedures, prior to the Fall of
       2009, Rice University did not document the results of its risk assessments on potential
       subawardees at the pre-subaward stage. In addition, Rice University did not have a
       formal process that would provide risk assessments on subawardees on an on-going
       basis at the post-subaward stage and no rationale was documented to support the level
       of monitoring activities to be conducted on the subawardees. Rice University’s policies
       and procedures should be strengthened to provide greater oversight in the post-
       subaward stage to ensure that the subaward costs claimed are reasonable, allowable,
       and allocable to its current and future NSF awards.

   •   Rice University did not fully comply with the reporting requirements of the Bayh-Dole Act
       and NSF for invention disclosure and patent application. We reviewed the invention
       disclosures and patent applications of six inventions developed under NSF Award No.
       EEC-0647452. We noted that one invention was disclosed to NSF 104 days late and
       one provisional patent application did not indicate the NSF award number or NSF as the
       federal funding agency. Rice University has established policies and procedures on
       invention disclosure and patent application. However, due to personnel turnover and
       miscommunication between departments, the policies and procedures could not be
       effectively implemented to ensure compliance with the relevant provisions. As a result of
       the non-compliance, NSF may not have current information regarding all inventions and
       patents developed, which is important for evaluating award progress and reporting
       research highlights to Congress. In addition, failure to comply with the Bayh-Dole Act
       and implement provisions requiring disclosure of inventions to NSF could lead to the
       University’s forfeiture of title of inventions developed under the NSF awards under some
       circumstances.

While we did not assess the impact of these noncompliance and internal control deficiencies on
Rice University’s other NSF awards, we believe the same deficiencies may exist under those
programs and, if not corrected, could impact future NSF awards.

To address these compliance and internal control deficiencies, the auditors recommend that the
Director of NSF’s Division of Institution and Award Support (DIAS) address and resolve the
following recommendations made to Rice University. It is recommended that Rice University (1)
develop and implement a formal on-going post-subaward risk assessment process, which will
include an on-going risk-based monitoring approach to better ensure that costs charged to NSF
awards are reasonable, allowable, and allocable; and (2) ensure that its revised policies and
procedures on invention disclosure and patent application are adequate, comply with NSF and
Federal regulations, and are properly implemented. In addition, Rice should take a proactive
role to educate research personnel on federal awards with potential inventions regarding the
Bayh-Dole Act and NSF invention reporting and disclosure requirements.

Rice University responded to the draft report on January 25, 2011. In its response, Rice
University agreed that there are opportunities to improve the documentation of its subaward
policies and procedures and monitoring steps and agreed to take steps to strengthen the
documentation of the monitoring activities.


                                                       Rice University stated that its subaward
monitoring policies and procedures in effect during the audit period met the requirements of
OMB Circular A-133 and did provide reasonable assurance that Rice University’s subawardees
administered Federal awards in compliance with laws, regulations and the provisions of the
subaward agreements. Rice University concurred with the finding on non-compliance with the
Bayh-Dole Act and NSF provisions on invention disclosure and patent application, and agreed
to implement our recommendations.

The findings in this report should not be closed until NSF has determined that all the
recommendations have been adequately addressed and the proposed corrective actions have
been satisfactorily implemented. Rice University’s response to each finding is summarized
within the report and included in its entirety in Appendix A of this report.

For a complete discussion of audit findings, refer to the Report on Internal Control Over
Financial Reporting and on Compliance and Other Matters Based on an Audit of Financial
Schedules Performed in Accordance with Government Auditing Standards.
                                         WILLIAM MARSH RICE UNIVERSITY


                                                    TABLE OF CONTENTS

                                                                                                                                                 Page

Executive Summary:

Table of Contents:

Introduction:
    Background ...............................................................................................................................     1
    Audit Objectives, Scope and Methodology ................................................................................                       3

Findings and Recommendations
   Report on Internal Control over Financial Reporting and on Compliance
    and Other Matters Based on an Audit of Financial Schedules Performed
    in Accordance with Government Auditing Standards ...............................................................                               4

Financial Schedules and Supplemental Information:
   Independent Auditors’ Report on Financial Schedules ..............................................................                             13
   Schedule A-1 – Schedule of Award Costs (Award No. EEC-0647452) ......................................                                          15
   Schedule A-2 – Schedule of Award Costs (Award No. DGE-0504425) ......................................                                          16
   Schedule A-3 – Schedule of Award Costs (Award No. HRD-0450363) ......................................                                          17
   Schedule A-4 – Schedule of Award Costs (Award No. OISE-0530220) .....................................                                          18
   Schedule B – Summary Schedule of Awards Audited and Audit Results ...................................                                          19
   Notes to Financial Schedules ...................................................................................................               22

Appendices
   Appendix A – Awardee’s Comments to Report
   Appendix B – Prior Review and Audit Findings
   Appendix C – Exit Conference

Acronyms

     CFR                        Code of Federal Regulations
     NSF                        National Science Foundation
     OIG                        Office of Inspector General
     OMB                        Office of Management and Budget
     OSR                        Office of Sponsored Research
     RCA                        Research and Cost Accounting
     Rice University            William Marsh Rice University
     PI                         Principal Investigator
     OTT                        Office of Technology Transfer
INTRODUCTION
BACKGROUND

We audited funds awarded by the National Science Foundation (NSF) to William Marsh Rice
University (“Rice University”) under award numbers EEC-0647452, DGE-0504425, HRD-
0450363 and OISE-0530220 for the period October 1, 2004 to September 30, 2009. Rice
University, as a Federal awardee, is required to follow the cost principles specified in 2 CFR
220, Cost Principles for Educational Institutions (formerly Office of Management and Budget
(OMB) Circular A-21), and the Federal administrative requirements contained in 2 CFR 215 -
Uniform Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations (formerly OMB Circular A-110).

Rice University, located in Houston, Texas, is a private not-for-profit higher education institution
under Section 501(c) (3) of the Internal Revenue Code. According to its website, Rice
University is a private research university aspiring to path breaking research, unsurpassed
teaching, and contributions to the betterment of the world. It seeks to fulfill this mission by
cultivating a diverse community of learning and discovery that produces leaders across the
spectrum of human endeavor.

Rice University was selected for audit because of large amounts of NSF funding that are
passed-through to other organizations; high dollar value and number of NSF awards; the
collaborative nature of many of the NSF awards; deficiencies reported in NSF’s 2006 Desk
Review and Rice University’s OMB Circular A-133 single audits for FYs 2007 and 2008; and
because NSF is Rice University’s cognizant federal agency, responsible for ensuring that costs
are claimed in accordance with NSF and federal regulations.

As of September 2009, Rice University had 203 active NSF awards totaling over $109 million.
Rice University’s NSF portfolio of awards includes groups of universities, non-profit
organizations, and contractors working together on a common initiative with one or more of the
organizations functioning as the coordinator of all financial administration. All four awards
selected for audit are funded at amounts over $1 million and three of them have subawards with
other higher education institutions, where Rice University is the principal management entity to
ensure that the programmatic objectives are accomplished and the financial award terms and
conditions are met.

Description of the NSF awards we audited is as follows:

Award EEC-0647452 – NSEC: Center for Biological and Environmental Nanotechnology
(CBEN). NSF awarded Cooperative Agreement Award No. EEC-0647452 to Rice University for
the period October 1, 2006 to September 30, 2011 in the amount of $9,753,646, with a cost
sharing requirement of $1,176,075. NSF funds are used for the Nanoscale Science and
Engineering Center (NSEC), the Center for Biological and Environmental Nanotechnology
(CBEN) and support the goal to discover and develop nanoparticles that enable new medical
and environmental technologies. Located at Rice University, CBEN engages in collaborative,
interdisciplinary research activities with more than 20 participants from diverse departments.
There is one subawardee, Georgia Institute of Technology (budgeted amount: $205,833), under
the award. The award has patents and inventions reported and Rice University is required to
comply with the Bayh-Dole Act and NSF reporting requirements.




                                                 1
Rice University is responsible for overall management of the project. Cumulative disbursements
for award number EEC-0647452 reported to NSF through September 30, 2009 were
$6,797,525. Cost share claimed totaled $987,147.

Award DGE-0504425 – IGERT: Nanophotonics: Fundamental and Applications in
Emerging Technologies (IGERT). NSF awarded Grant Award No. DGE-0504425 to Rice
University for the period June 15, 2005 to May 31, 2010 in the amount of $3,086,640, with a
cost sharing requirement of $485,100. This Integrative Graduate Education and Research
Training (IGERT) award supports the establishment of a unique multidisciplinary graduate
training program in Nanophotonics at Rice University.

Cumulative disbursements for award number DGE-0504425 reported to NSF through
September 30, 2009 were $2,053,383. Cost share claimed totaled $447,776.

Award HRD-0450363 – Rice-Houston Alliance for Graduate Education and the
Professoriate (AGEP). NSF awarded Cooperative Agreement Award No. HRD-0450363 to
Rice University for the period October 1, 2004 to September 30, 2010 in the amount of
$5,290,293, with a cost sharing requirement of $1,599,370. Rice University and 6 other
colleges formed an alliance, the Rice-Houston Alliance for Graduate Education and the
Professoriate (Rice-Houston AGEP), with a common mission of significantly increasing the
number of underrepresented minority students earning Ph.D.s and positioning them to become
leaders in science, technology, engineering and mathematics (STEM) fields. There is one
subawardee, University of Houston (budgeted amount: $2,325,000), under the award.

Rice University is responsible for overall management of the project. Cumulative disbursements
for award number HRD-0450363 reported to NSF through September 30, 2009 were
$3,413,278. Cost share claimed totaled $2,652,839.

Award OISE-0530220 – PIRE: US-Japan Cooperative Research & Education: Ultrafast and
Nonlinear Optics in 6.1 Angstrom Semiconductors (PIRE). NSF awarded Grant Award No.
OISE-0530220 to Rice University for the period January 1, 2006 to December 31, 2010 in the
amount of $2,251,704. This Partnership for International Research and Education (PIRE) led by
Rice University investigates the ultrafast and nonlinear optical properties of quantum structures
based on the 6.1-angstrom (A) III-V semiconductors. There are two subawardees, University of
Florida (budgeted amount: $281,770) and Texas A&M University (budgeted amount: $241,035),
under the award with a total budgeted amount of $522,805.

Rice University is responsible for overall management of the project. Cumulative disbursements
for award number OISE-0530220 reported to NSF through September 30, 2009 were
$1,593,870. There is no cost share requirement under this award.




                                               2
AUDIT OBJECTIVES, SCOPE AND METHODOLOGY

At the request of the NSF Office of Inspector General, Mayer Hoffman McCann P.C. conducted
an audit of NSF Award Numbers EEC-0647452, DGE-0504425, HRD-0450363 and OISE-
0530220 granted to William Marsh Rice University (Rice University).

The objectives of the audit were to:

   1. Determine whether Rice University has adequate systems of internal controls over
      administering its NSF awards to account for and ensure compliance with applicable
      OMB Circular and NSF award requirements.

   2. Identify and report instances of noncompliance with laws, regulations and the provisions
      of the award agreements and weaknesses in Rice University’s internal controls over
      compliance and financial reporting that could have a direct and material effect on the
      Schedules of Award Costs (Schedules A-1 through A-4) and Rice University’s ability to
      properly administer, account for, and manage its NSF awards.

   3. Determine and report on whether Rice University adequately monitors its subawards.

   4. Follow-up on the issues/findings identified in NSF’s 2006 Desk Review Report and Rice
      University’s 2007 and 2008 OMB Circular A-133 single audits (see results of follow-up in
      Appendix B);

   5. Determine and report on whether the Schedules of Award Costs (Schedules A-1, A-2, A-
      3 and A-4) of Rice University present fairly, in all material respects, the costs claimed on
      the Federal Financial Report (FFR) – Federal Share of Expenditures and cost sharing in
      conformity with NSF OIG’s Financial Audit Guide, and Federal and NSF award terms
      and conditions.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government
Auditing Standards (2007 Revision) issued by the Comptroller General of the United States, and
the guidance provided in the National Science Foundation OIG Audit Guide (August 2007), as
applicable. These standards and the NSF OIG Audit Guide require that we plan and perform
the audit to obtain reasonable assurance about whether amounts claimed to NSF as presented
in the Schedules of Award Costs (Schedules A-1 through A-4) are free of material
misstatements. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the Schedules of Award Costs. An audit also includes assessing the
accounting principles used and the significant estimates made by Rice University, as well as
evaluating the overall financial schedule presentation. We believe that our audit provides a
reasonable basis for our opinion.




                                                3
FINDINGS AND RECOMMENDATIONS
              2301 Dupont Drive, Suite 200
              Irvine, California 92612
              949-474-2020 ph
              949-263-5520 fx
              www.mhm-pc.com



National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


     REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING AND ON
COMPLIANCE AND OTHER MATTERS BASED ON AN AUDIT OF FINANCIAL SCHEDULES
   PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS

We have audited costs claimed as presented in the Schedules of Award Costs (Schedules A-1,
A-2, A-3 and A-4), which summarize the financial reports submitted by William Marsh Rice
University (Rice University) to the National Science Foundation (NSF) and claimed cost share,
as applicable, for the awards and periods listed below and have issued our report thereon dated
February 18, 2011.

            Award Number                        Award Period                Audit Period

            EEC-0647452                      10/01/06 – 09/30/11        10/01/06 – 09/30/09
            DGE-0504425                      06/15/05 – 05/31/10        06/15/05 – 09/30/09
            HRD-0450363                      10/01/04 – 09/30/10        10/01/04 – 09/30/09
            OISE-0530220                     01/01/06 – 12/31/10        01/01/06 – 09/30/09


We conducted our audit of the Schedules of Award Costs as presented in Schedules A-1, A-2,
A-3 and A-4 in accordance with auditing standards generally accepted in the United States of
America, the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States (2007 revision), and the
guidance provided in the National Science Foundation Audit Guide (August 2007), as
applicable.


INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of the Schedules of Award Costs (Schedules A-1, A-2, A-3
and A-4) for the period October 1, 2004 to September 30, 2009, we considered Rice
University’s internal control over financial reporting as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the financial schedules, but not for the
purpose of expressing an opinion on the effectiveness of Rice University’s internal control over
financial reporting. Accordingly, we do not express an opinion on the effectiveness of Rice
University’s internal control over financial reporting.




                                                  4
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and was not designed to identify all deficiencies
in internal control over financial reporting that might be deficiencies, significant deficiencies or
material weaknesses. We did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above. However, we
identified a deficiency in internal control over financial reporting, as discussed as Finding No. 1
in the Schedule of Findings and Recommendations below, that we consider to be a significant
deficiency in internal control over financial reporting. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance.


COMPLIANCE AND OTHER MATTERS

As part of obtaining reasonable assurance about whether Rice University’s financial schedules
are free of material misstatement, we performed tests of Rice University’s compliance with
certain provisions of applicable laws, regulations, and NSF award terms and conditions,
noncompliance with which could have a direct and material effect on the determination of
financial schedule amounts. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an
opinion. The results of our tests of compliance disclosed certain instances of noncompliance
that are required to be reported under Government Auditing Standards and the National
Science Foundation OIG Audit Guide and are described as Finding Nos. 1 and 2 in the
Schedule of Findings and Recommendations below.

Rice University’s response to the findings identified in our audit is described below after each
finding and is included in its entirety in Appendix A. We did not audit Rice University’s response
and, accordingly, we express no opinion on it.




                                                  5
SCHEDULE OF FINDINGS AND RECOMMENDATIONS

Finding 1. Post-Subaward Fiscal Monitoring of Subawardees Should be Improved

Rice University did not adequately monitor subaward costs, which included four subawards
amounting to over $1.3 million in claimed costs. Although Rice University established written
subaward monitoring policies and procedures, prior to the Fall of 2009, Rice University did not
document the results of its risk assessments on potential subawardees at the pre-subaward
stage. In addition, Rice University did not have a formal process that would provide an on-going
risk assessment on subawards at the post-subaward stage and no rationale was given to
identify the level of monitoring activities that should be conducted for the subawardees. Rice
University’s policies and procedures should be strengthened to provide greater oversight in the
post-subaward stage to ensure that the subaward costs claimed are reasonable, allowable, and
allocable to its current and future NSF awards.

To validate the costs claimed by the subawardees for the NSF awards, we performed on-site
audit tests at the University of Houston, Rice University’s subawardee, under Award No. HRD-
0450363. We also reviewed a sample of invoices from the subawardees (Georgia Technical
Institute, University of Florida and Texas A&M University) under Award Nos. EEC-0647452 and
OISE-0530220 for the costs claimed and submitted to Rice University for reimbursement.
Although no questioned subaward costs were identified from our audit tests, we noted that Rice
University should perform additional routine subaward fiscal monitoring in the post-subaward
stage to ensure that Rice University can more readily prevent or identify unallowable claimed
subaward costs on its current and future NSF awards.

2 CFR 215, Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations (OMB Circular A-110), Subpart C,
§215.51(a), states: “Recipients are responsible for managing and monitoring each project,
program, subaward, function or activity supported by the award. Recipients shall monitor
subawards to ensure subrecipients have met the audit requirements as delineated in §215.26.”

Further, OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations, Subpart D, §400(d.3) – Pass-Through Entity Responsibilities, states: “A pass-
through entity shall perform the following for the Federal awards it makes:… (3) Monitor the
activities of subrecipients as necessary to ensure that Federal awards are used for authorized
purposes in compliance with laws, regulations, and the provisions of contracts or grant
agreements and that performance goals are achieved.” Although OMB Circular A-133 does not
specifically state that an awardee is required to implement a risk-based subaward monitoring
process, the OMB Circular A-133 Compliance Supplement, Part 3, Section M, requires the
auditor to determine whether or not the awardee evaluated its subaward risk to determine the
need for closer monitoring.

The NSF Grant Policy Manual, Section 301, also specifies that grantees are responsible for
managing and monitoring subaward performance and exercising prudent management of all
expenditures and actions affecting the grant.

Three out of the four NSF awards audited have four subawardees with total claimed subaward
costs of $1,330,714 for the audited period. According to Rice University’s policies and
procedures, subawardee fiscal monitoring responsibilities are performed by the Office of
Sponsored Research (OSR), the Principal Investigator (PI) and the administrator of the
department managing the award, and Research and Cost Accounting (RCA) of the Controller’s


                                               6
Office. The subawardee monitoring process is generally conducted in the pre-subaward and
post-subaward stages.

Pre-subaward Stage:

In the pre-award stage, OSR develops and negotiates the subaward agreements. According to
Rice University’s policies and procedures, prior to issuing a subaward, OSR, with RCA’s
assistance, is responsible for assessing the risk of the subaward candidate. In order to perform
the risk assessment, OSR checks to ensure that the subaward candidate is not suspended or
barred from Federal contracting. OSR also reviews the subaward candidate’s OMB Circular A-
133 single audit reports, if applicable, to identify if the subaward candidate has any internal
control deficiencies or non-compliance issues. If so, OSR will work with RCA to determine if
additional requirements should be incorporated into the subaward agreement to monitor efforts
to correct the deficiencies and non-compliance noted. In addition, OSR considers other factors
in the risk assessment, such as the subaward candidate’s past experience, financial
competency, and the dollar amount of the subaward.

However, prior to the Fall of 2009, Rice University’s policies and procedures did not require that
the risk assessment results at the pre-subaward stage be documented. Rice University’s
officials stated that pre-subaward risk assessments were performed during our audit period but
the results were not documented. Therefore, within our audit period, there was no document
available to show what types of risks that Rice University had identified for the NSF awards we
audited and whether the subawardees were considered “low risk,” “moderate risk,” or “high risk”
to support the monitoring steps conducted to mitigate the risks.

According to Rice University officials, in September 2009, they began using a risk assessment
matrix to document pre-subaward risk assessment results. This risk assessment is performed
at the pre-subaward stage to determine if a subaward should be made.

Post-subaward Stage:

During the post-subaward stage, the PI, the administrator managing the award, and RCA are
responsible for the fiscal monitoring of the subawards. Based on our interviews with the PIs and
the administrators of the three NSF awards, fiscal monitoring activities are generally limited to
on-going communication with the subawardees and review of subawardee invoices for
mathematical accuracy and budgetary compliance. Our review indicates, with the exception of
the subawardee under NSF award HRD-0450363, that subawardees under the audited NSF
awards submit their invoices without any supporting documentation. For award no. HRD-
0450363, the subawardee submits a listing of the expenses claimed, so that the PI and the
administrator could perform more detailed review on the allowability of the expense items.

According to Rice University’s policies and procedures, the PI and the administrator, based on
their judgment, can adopt various monitoring techniques, such as communication with the
subawardee, review of financial reports and invoices, and site visits to the subawardee work
site. However, the policies and procedures do not indicate when these monitoring techniques
would be used or how the officials adopting the monitoring techniques document how or why
they are chosen. Based on our review, fiscal monitoring activities are generally limited to on-
going communication with the subawardees and review of subawardee invoices for
mathematical accuracy and budgetary compliance. No on-site fiscal monitoring visits at the
subawardees were conducted for the NSF awards we audited. In addition, the policies and



                                                7
procedures do not include a formal process to assess the risks of subawards on an on-going
basis to determine if the current level of subawardee oversight is adequate.

The RCA of the Controller’s Office is responsible for annually reviewing the A-133 single audit
certifications submitted to Rice University by the subawardees during the post-subaward stage
for any findings and questioned costs. If there are any findings or questioned costs noted for a
subawardee, RCA will follow up with the subawardee to determine if the findings or questioned
costs have been addressed by the subawardee. However, this review process does not include
an assessment of whether the findings or questioned costs increase the risk of the subaward.

According to Rice University’s officials the University primarily relies on the subawardees’ own
internal control system and OMB Circular A-133 single audits to ensure that the subawardees
are in compliance with the terms and conditions of the subaward agreements and that subaward
costs claimed are reasonable, allowable, and allocable in accordance with applicable Federal
and NSF provisions.

Fiscal monitoring of subawardees at Rice University is inadequate because the rationale used
to perform different monitoring techniques is not documented and there is no formal on-going
post-subaward risk assessment process to ensure that the current level of subawardee
oversight is adequate. This could lead to NSF funds being used for purposes other than those
intended under the NSF awards. Thus, lack of adequate post-subaward subawardee fiscal
monitoring increases the risk that some of the subawardee costs or cost sharing claimed by
Rice University may be unallowable, unreasonable, or unallocable under the NSF awards. In
addition, since the cost share reported by Rice University to NSF includes the cost share
reported by the subawardees on their invoices, lack of adequate subawardee fiscal monitoring
increases the risk that Rice University does not meet its cost share obligation to the NSF
awards. Furthermore, without sufficient information from the subawardees, the PI and the
administrator may not be able to identify any potential problems and questioned costs. A formal
on-going documented subaward risk assessment process could better prevent or identify
unallowable subaward costs or cost sharing claimed on NSF awards.

Recommendation 1:

We recommend that NSF’s Director of the Division of Institution and Award Support address
and resolve the following recommendation that:

   (a) Rice University enhance its subaward fiscal monitoring policy and procedures by
       developing and implementing a formal on-going post-subaward risk assessment process
       for subawardees that will cover the entire period of the subawards. The process should
       be a risk-based process to perform on-going assessment on the risk of its subawards to
       determine the level of subawardee oversight necessary. This process would determine
       the need for performing steps beyond a review of the OMB Circular A-133 single audit
       report results, such as performing desk reviews, site visits, and sampling of support
       documentation. Rice University's policies and procedures should also require that the
       assessment results and the rationale used to perform different monitoring techniques for
       each subawardee be documented.

Awardee’s Comments

While Rice University agrees that documentation of its subaward monitoring activities can be
enhanced, it disagrees with classifying this finding as a significant deficiency because there


                                               8
were no questioned costs identified from the audit. In addition, Rice University believes that,
taking into consideration of the materiality of its subaward expenditures, its subaward monitoring
policies and procedures that were in place during the award period met the requirements of
OMB Circular A-133 and did provide Rice University with reasonable assurance that Rice
University’s subawardees, the vast majority of whom are large universities that operate within a
stable business environment, administered Federal awards in compliance with laws, regulations
and the provision of the subaward agreements. However, Rice University stated that it is taking
action to formalize and improve the subaward monitoring policies and procedures. The
improved procedures will provide Rice University with additional guidance for subaward
monitoring and documentation, require that the risk assessment for each issued subaward be
performed and documented at appropriate intervals, and require that, based on pre-award and
on-going risk assessment, appropriate subaward monitoring techniques be selected and that
decisions regarding the techniques used be documented.

Auditor’s Response

Rice University’s comments are responsive to the finding and recommendation. However, we
do not concur with Rice University that the finding is not a significant deficiency. As Rice
University stated, it had $1.7 million in NSF subaward expenditures in FY 2010 that this finding
affects. A deficiency in internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned functions,
to prevent, or detect and correct misstatements on a timely basis. A significant deficiency is a
deficiency, or a combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance. Although
there were no questioned costs identified from our audit, it could be attributed to the
subawardees’ internal controls, but not Rice University’s own internal controls.

This report finding should not be closed until NSF determines that the recommendation has
been adequately addressed and the proposed recommendations have been satisfactorily
implemented.


Finding 2. Non-compliance with Bayh-Dole Act and NSF Provisions on Invention
Disclosure and Patent Application

Rice University did not fully comply with the reporting requirements of the Bayh-Dole Act and
NSF, although Rice University has established policy and procedures on invention disclosure
and patent application.        Due to personnel turnover and miscommunication between
departments, the policy and procedures could not be effectively implemented to ensure
compliance with the relevant provisions. As a result, NSF may not have current information
regarding all inventions and patents developed for evaluating award progress, and reporting
research highlights to Congress. In addition, failure to comply with the Bayh-Dole Act and
implement NSF provisions requiring disclosure of inventions to NSF could lead to forfeiture of
title to inventions developed under the NSF awards under some circumstances.

Rice University’s Patent and Software policies properly state, “[i]n case of the government-
supported research, the Bayh-Dole Act and subsequent amendments and federal regulations
provide the basis for current university technology transfer practices.” Consistent with
government-wide Bayh-Dole regulations (37 C.F.R. Part 401), NSF’s funding agreements
contain a standard patent rights clause (see NSF Grant Policy Manual (GPM) 731.3). The
clause requires that the grantee discloses each subject invention to NSF within two months after


                                                 9
the inventor discloses it in writing to grantee personnel responsible for patent matters. The
disclosure should be in the form of a written report and shall identify the grant under which the
invention was made and the inventor(s). The clause also states that the grantee agrees to
include, within the specification of any U.S. patent applications and any patent issuing thereon
covering a subject invention, the following statement, “This invention was made with
government support under (identify the grant) awarded by the National Science Foundation.
The government has certain rights in this invention.”

According to Rice University, a total of nine inventions have been developed under NSF award
No.                                                                                      as of
September 30, 2009. We reviewed the relevant reporting documents of six inventions and
noted two instances of noncompliance. Specifically,                       was disclosed by the
inventor to Rice University’s Office of Technology Transfer (OTT) on September 21, 2007, but
the invention was not reported to NSF until March 4, 2008, 104 days late. The invention should
have been reported to NSF by November 20, 2007. In addition, the provisional patent
application for                   did not indicate NSF as the funding source or the NSF award
number. Instances of late disclosure of inventions to the federal funding agency were also
found in Rice University’s OMB Circular A-133 single audit report for FYE 06/30/06.

Rice University assigns the invention disclosure and patent application responsibilities to its
Office of Technology Transfer (OTT). The Patent Manager (formerly known as Technology
Transfer Coordinator) of OTT is responsible for reporting inventions and making sure that all
required information is disclosed in a timely manner to the federal funding agency through an
online system named “iEdison.” A Licensing Associate or Manager is assigned to each
invention, who works closely with the inventor to determine the patentability and market
potential of the invention. If it is determined that a patent application is to be filed for an
invention, the assigned Licensing Associate or Manager will instruct an outside patent counsel
to prepare the application. The outside patent counsel is responsible to confirm the funding
sources of the invention with the inventor, so that the relevant information can be listed on the
patent application. As noted earlier, Rice University has patent and software policies to set forth
the general policies and guidelines to define the obligations of Rice University’s faculty, staff and
students with regard to inventions that result from research activities. However, due to
personnel turnover in OTT and miscommunication between OTT and the inventing department,
such policies and procedures were not effectively implemented to ensure full compliance with
the invention disclosure and patent application requirements of the Bayh-Dole Act and NSF.

According to OTT, the invention            was disclosed to OTT by the faculty inventor on
September 21, 2007, a time of transition for OTT. On August 31, 2007, the Technology
Transfer Coordinator, who was responsible for filing the invention reports with the granting
agencies, resigned from the position. After carefully considering the job responsibilities for
sponsor reporting, as well as the findings from the OMB Circular A-133 single audit for FYE
06/30/06, OTT decided to upgrade the Technology Transfer Coordinator position from one that
reported to the Office’s Business Manager to a Patent Manager position that would report
directly to the Director of OTT. The Business Manager was assigned to temporarily cover the
reporting duties until a new person was hired for the Patent Manager position. However, the
Business Manager did not have all the inventions reported timely, and the new Patent Manager
who began January 7, 2008 inherited a backlog. Shortly thereafter, the Business Manager left
Rice University.

Invention         was created by a group of students for a senior design project. According to
OTT, the invention was disclosed to OTT on March 31, 2007. Although the invention disclosure


                                                 10
noted that the invention was related to a
                  award, it did not indicate NSF as the federal funding agency or the award
number. Since the students needed to perform a presentation of the invention, which is a public
disclosure, on April 3, 2007, OTT sought to make a very quick turnaround to file a provisional
patent application for the invention on April 2, 2007 to protect the intellectual property. On April
4, 2007, the Technology Transfer Coordinator sent an email to the students requesting the
federal funding information and the students replied to OTT on April 5, 2007. However, OTT
was not sure if this information was communicated to the patent counsel for immediate
amendment to the application or if a decision was made to include the information later upon
conversion of the application to a utility patent. The Technology Transfer Coordinator and the
two Licensing Associates that worked on the application are no longer with OTT, and the patent
counsel did not have any record of specific instructions regarding the timing to provide updated
information on the application. The provisional patent application was never converted to a utility
patent. It was abandoned and waived back to the government because of low commercial
potential.

To strengthen its sponsored invention reporting and patent application system, Rice University
engaged a consulting company in March 2009 to examine the system and provide suggestions
for improvements. During our fieldwork in May 2010, a draft copy of a practices manual had
been developed by the consulting company. Rice is in the process of reviewing and finalizing
the practice manual.

As a result of the non-compliance, NSF may not have current information regarding all
inventions and patents developed, which is important for the evaluation of progress and future
funding decisions, as well as for reporting research results to Congress. In addition, failure to
disclose inventions to NSF could result in the University’s forfeiture of title and NSF obtaining
title in certain circumstances.

Recommendation 2:

We recommend that NSF’s Director of the Division of Institution and Award Support address
and resolve the following recommendations that:

   (a) Rice University ensure that its revised policies on patent application are adequate,
       comply with NSF and federal regulations, and are properly implemented; and

   (b) Rice University’s Office of Technology Transfer take a proactive role to educate research
       personnel on federal awards with potential inventions regarding the Bayh-Dole Act and
       NSF invention reporting and disclosure requirements.

Awardee’s Comments

Rice University concurs with the finding and agrees to implement the recommendations. Rice
University stated that it has been working with an outside consultant to ensure that its revised
policies on invention disclosure and patent application are adequate, comply with NSF and
Federal regulations and are properly implemented. Rice also stated that training on inventions
regarding the Bayh-Dole Act will be provided to research personnel.

Auditor’s Response

Rice University’s comments are responsive to the finding and the recommendations.


                                                11
This report finding should not be closed until NSF determines that the recommendation has
been adequately addressed and the proposed corrective actions have been satisfactorily
implemented.


This report is intended solely for the information and use of Rice University’s management, the
National Science Foundation - Rice University’s cognizant federal audit agency, the Office of
Management and Budget, and the Congress of the United States and is not intended to be, and
should not be used by anyone other than these specified parties.




Mayer Hoffman McCann P.C.
Irvine, California
February 18, 2011




                                              12
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
              2301 Dupont Drive, Suite 200
              Irvine, California 92612
              949-474-2020 ph
              949-263-5520 fx
              www.mhm-pc.com




National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


            INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES

We have audited the costs claimed by William Marsh Rice University (Rice University) to the
National Science Foundation (NSF) on the Federal Financial Reports (FFRs) for the NSF
awards listed below. In addition, we have audited the amount of cost share claimed on the NSF
awards, as applicable. The FFRs, as presented in the Schedules of Award Costs (Schedules A-
1, A-2, A-3 and A-4), are the responsibility of Rice University’s management. Our responsibility
is to express an opinion on these Schedules of Award Costs based on our audit.

            Award Number                        Award Period                Audit Period

            EEC-0647452                      10/01/06 – 09/30/11        10/01/06 – 09/30/09
            DGE-0504425                      06/15/05 – 05/31/10        06/15/05 – 09/30/09
            HRD-0450363                      10/01/04 – 09/30/10        10/01/04 – 09/30/09
            OISE-0530220                     01/01/06 – 12/31/10        01/01/06 – 09/30/09


We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States (2007 revision), and
the guidance provided in the National Science Foundation OIG Audit Guide (August 2007), as
applicable. These standards and the National Science Foundation OIG Audit Guide, require
that we plan and perform the audit to obtain reasonable assurance about whether the amounts
claimed to NSF as presented in the Schedules of Award Costs (Schedules A-1 through A-4) are
free of material misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the Schedules of Award Costs. An audit also
includes assessing the accounting principles used and the significant estimates made by Rice
University’s management, as well as evaluating the overall financial schedule presentation. We
believe our audit provides a reasonable basis for our opinion.




                                                 13
In our opinion, the Schedules of Award Costs (Schedules A-1 through A-4) referred to above
present fairly, in all material respects, the costs claimed on the FFRs and cost share claimed for
the period October 1, 2004 to September 30, 2009 in conformity with the provisions of the
National Science Foundation OIG Audit Guide, NSF Grant Policy Manual, terms and conditions
of the NSF awards and on the basis of accounting described in the Notes to the Financial
Schedules, which is a comprehensive basis of accounting other than generally accepted
accounting principles. These schedules are not intended to be a complete presentation of
financial position of Rice University in conformity with accounting principles generally accepted
in the United States of America.

In accordance with Government Auditing Standards, and guidance provided in the National
Science Foundation OIG Audit Guide, we have also issued our report dated February 18, 2011,
on our consideration of Rice University’s internal control over financial reporting and our tests of
Rice University’s compliance with certain provisions of laws, regulations, and NSF award terms
and conditions and other matters. The purpose of that report is to describe the scope of our
testing of internal control over financial reporting and compliance and the results of that testing,
and not to provide an opinion on the internal control over financial reporting or on compliance.
That report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be considered in assessing the results of our audit.

This report is intended solely for the information and use of Rice University’s management, the
National Science Foundation - Rice University’s cognizant federal audit agency, the Office of
Management and Budget, and the Congress of the United States and is not intended to be, and
should not be used by anyone other than these specified parties.




Mayer Hoffman McCann
Irvine, California
February 18, 2011




                                                14
                                                                                                          SCHEDULE A-1

                                        WILLIAM MARSH RICE UNIVERSITY
                              National Science Foundation Award Number EEC-0647452
                                              Schedule of Award Costs
                                        October 1, 2006 to September 30, 2009
                                                       Interim




                                                                                    Claimed
                                  Approved      Claimed       Reclassification     Costs After      Questioned   Schedule
       Cost Category               Budget       Costs (A)        of Costs        Reclassification     Costs      Reference
Direct costs:
   Salaries and wages         $    4,212,235    2,719,771                   -         2,719,771            -
   Fringe benefits                 1,287,781      828,473                   -           828,473            -
   Equipment                          11,500      122,999                   -           122,999            -
   Travel                            211,692      141,723                   -           141,723            -
   Participant support               277,758      262,727                   -           262,727            -
   Other direct costs:
      Material and supplies         598,299       566,159                   -           566,159            -
      Publication costs              31,000        66,333                   -            66,333            -
      Consultant services               -             -                     -               -              -
      Computer services                 -             -                     -               -              -
      Subawards                     205,833       105,285                   -           105,285            -
      Other direct costs              5,000           -                     -               -              -

        Total direct costs         6,841,098    4,813,470                   -         4,813,470            -

Indirect costs                     2,912,548    1,984,055                   -         1,984,055            -

        Total                 $    9,753,646    6,797,525                   -         6,797,525            -

Cost sharing                  $    1,176,075      987,147                   -           987,147            -



  (A) - The total claimed costs agree with the total expenditures reported by Rice University on the Federal
  Financial Report as of the quarter ended September 30, 2009. Claimed costs reported above are based on
  the cost ledgers prepared by Rice University from Rice University's books of accounts.




                              See accompanying Notes to Financial Schedules

                                                      15
                                                                                                          SCHEDULE A-2

                                        WILLIAM MARSH RICE UNIVERSITY
                              National Science Foundation Award Number DGE-0504425
                                              Schedule of Award Costs
                                        June 15, 2005 to September 30, 2009
                                                       Interim




                                                                                    Claimed
                                  Approved      Claimed       Reclassification     Costs After      Questioned   Schedule
       Cost Category               Budget       Costs (A)        of Costs        Reclassification     Costs      Reference
Direct costs:
   Salaries and wages         $      450,000      346,400                   -           346,400            -
   Fringe benefits                   119,500       88,545                   -            88,545            -
   Equipment                         112,100       58,560                   -            58,560            -
   Travel                             40,000          -                     -               -              -
   Participant support             1,784,500    1,144,052                   -         1,144,052            -
   Other direct costs:
      Material and supplies          32,250        25,626                   -            25,626            -
      Publication costs              32,250           -                     -               -              -
      Consultant services               -             -                     -               -              -
      Computer services                 -             -                     -               -              -
      Subawards                         -             -                     -               -              -
      Other direct costs            329,150       261,880                   -           261,880            -

        Total direct costs         2,899,750    1,925,063                   -         1,925,063            -

Indirect costs                      186,890       128,320                   -           128,320            -

        Total                 $    3,086,640    2,053,383                   -         2,053,383            -

Cost sharing                  $     485,100       447,776                   -           447,776            -



  (A) - The total claimed costs agree with the total expenditures reported by Rice University on the Federal
  Financial Report as of the quarter ended September 30, 2009. Claimed costs reported above are based on
  the cost ledgers prepared by Rice University from Rice University's books of accounts.




                              See accompanying Notes to Financial Schedules

                                                      16
                                                                                                          SCHEDULE A-3

                                        WILLIAM MARSH RICE UNIVERSITY
                              National Science Foundation Award Number HRD-0450363
                                              Schedule of Award Costs
                                        October 1, 2004 to September 30, 2009
                                                       Interim




                                                                                    Claimed
                                  Approved      Claimed       Reclassification     Costs After      Questioned   Schedule
       Cost Category               Budget       Costs (A)        of Costs        Reclassification     Costs      Reference
Direct costs:
   Salaries and wages         $    1,363,774    1,219,292                   -         1,219,292            -
   Fringe benefits                   284,631      273,423                   -           273,423            -
   Equipment                             -            -                     -               -              -
   Travel                            397,526      229,672                   -           229,672            -
   Participant support               582,843      414,510                   -           414,510            -
   Other direct costs:
      Material and supplies           68,183       41,441                   -            41,441            -
      Publication costs                  -            -                     -               -              -
      Consultant services             60,000       30,415                   -            30,415            -
      Computer services                  -            -                     -               -              -
      Subawards                    2,325,000      950,013                   -           950,013            -
      Other direct costs              45,000      116,768                   -           116,768            -

        Total direct costs         5,126,957    3,275,534                   -         3,275,534            -

Indirect costs                      163,336       137,744                   -           137,744            -

        Total                 $    5,290,293    3,413,278                   -         3,413,278            -

Cost sharing                  $    1,599,370    2,652,839                   -         2,652,839            -



  (A) - The total claimed costs agree with the total expenditures reported by Rice University on the Federal
  Financial Report as of the quarter ended September 30, 2009. Claimed costs reported above are based on
  the cost ledgers prepared by Rice University from Rice University's books of accounts.




                              See accompanying Notes to Financial Schedules

                                                      17
                                                                                                          SCHEDULE A-4

                                        WILLIAM MARSH RICE UNIVERSITY
                              National Science Foundation Award Number OISE-0530220
                                               Schedule of Award Costs
                                        January 1, 2006 to September 30, 2009
                                                       Interim




                                                                                    Claimed
                                  Approved      Claimed       Reclassification     Costs After      Questioned   Schedule
       Cost Category               Budget       Costs (A)        of Costs        Reclassification     Costs      Reference
Direct costs:
   Salaries and wages         $     418,889       217,543                   -           217,543            -
   Fringe benefits                  134,158        67,966                   -            67,966            -
   Equipment                            -          12,881                   -            12,881            -
   Travel                            92,550        96,157                   -            96,157            -
   Participant support              789,450       645,590                   -           645,590            -
   Other direct costs:
      Material and supplies          53,376        67,572                   -            67,572            -
      Publication costs              10,000           -                     -               -              -
      Consultant services               -             -                     -               -              -
      Computer services                 -             -                     -               -              -
      Subawards                     522,805       275,416                   -           275,416            -
      Other direct costs                -          33,059                   -            33,059            -

        Total direct costs         2,021,228    1,416,184                   -         1,416,184            -

Indirect costs                      230,476       177,686                   -           177,686            -

        Total                 $    2,251,704    1,593,870                   -         1,593,870            -




  (A) - The total claimed costs agree with the total expenditures reported by Rice University on the Federal
  Financial Report as of the quarter ended September 30, 2009. Claimed costs reported above are based on
  the cost ledgers prepared by Rice University from Rice University's books of accounts.




                              See accompanying Notes to Financial Schedules

                                                      18
                                                                          SCHEDULE B


                      WILLIAM MARSH RICE UNIVERSITY
               Summary Schedule of Awards Audited and Audit Results
                   From October 1, 2004 to September 30, 2009



Summary of Awards Audited

            Award Number                 Award Period               Audit Period
             EEC-0647452               10/01/06 – 09/30/11       10/01/06 – 09/30/09
             DGE-0504425               06/15/05 – 05/31/10       06/15/05 – 09/30/09
             HRD-0450363               10/01/04 – 09/30/10       10/01/04 – 09/30/09
            OISE-0530220               01/01/06 – 12/31/10       01/01/06 – 09/30/09

    Award Number      Type of Award                   Award Description
     EEC-0647452        Continuing      NSF funds are used for the Center for
                       Cooperative      Biological and Environmental Nanotechnology
                        Agreement       (CBEN) of Rice University and support the goal
                                        to discover and develop nanoparticles that
                                        enable new medical and environmental
                                        technologies.

     DGE-0504425            Grant       This Integrative Graduate Education and
                                        Research Training (IGERT) award supports the
                                        establishment of a unique multidisciplinary
                                        graduate training program in nanophotonics at
                                        Rice University.

     HRD-0450363       Continuing       Rice University and 6 other colleges formed an
                       Cooperative      alliance, the Rice-Houston Alliance for
                       Agreement        Graduate Education and the Professoriate
                                        (Rice-Houston AGEP), with a common mission
                                        of significantly increasing the number of
                                        underrepresented minority students earning
                                        Ph.D.s and positioning them to become leaders
                                        in science, technology, engineering and
                                        mathematics fields (STEM).

     OISE-0530220           Grant       This Partnership for International Research and
                                        Education (PIRE) led by Rice University
                                        investigates the ultrafast and nonlinear optical
                                        properties of quantum structures based on the
                                        6.1-angstrom (A) III-V semiconductors.




                                       19
                                                                          SCHEDULE B


                       WILLIAM MARSH RICE UNIVERSITY
                Summary Schedule of Awards Audited and Audit Results
                    From October 1, 2004 to September 30, 2009

                                    (Continued)



Summary of Questioned and Unsupported Costs

                                        Claimed       Questioned       Unsupported
    Award Number     Award Budget        Costs          Costs             Costs
     EEC-0647452     $ 9,753,646        6,797,525             -                 -
     DGE-0504425        3,086,640       2,053,383             -                 -
     HRD-0450363        5,290,293       3,413,278             -                 -
    OISE-0530220        2,251,704       1,593,870             -                 -
        Total        $ 20,382,283      13,858,056             -                 -

                                        Claimed       Questioned       Unsupported
      Cost Share     Award Budget        Costs          Costs             Costs
     EEC-0647452     $ 1,176,075          987,147             -                 -
     DGE-0504425          485,100         447,776             -                 -
     HRD-0450363        1,599,370       2,652,839             -                 -
        Total        $ 3,260,545        4,087,762             -                 -




                                        20
                                                                             SCHEDULE B


                          WILLIAM MARSH RICE UNIVERSITY
                   Summary Schedule of Awards Audited and Audit Results
                       From October 1, 2004 to September 30, 2009

                                        (Continued)


Summary of Non-Compliance and Internal Control Findings

                                                                      Amount of         Amount of
                         Non-Compliance                               Questioned         Claimed/
                              and/or        Significant    Material      Costs       Incurred Costs
        Findings         Internal Control   Deficiency    Weakness      Affected         Affected
  Fiscal Monitoring of   Non-Compliance        Yes           No       $          -     $ 1,330,714
   Subawardees              and Internal
   Could be                   Control
   Enhanced

 Noncompliance with      Non-Compliance           No         No                 -         N/A
  Bayh-Dole Act and
  NSF Provisions on
  Invention
  Disclosure and
  Patent Application




                                             21
                           WILLIAM MARSH RICE UNIVERSITY
                              Notes to Financial Schedules

                        From October 1, 2004 to September 30, 2009



Note 1: Summary of Significant Accounting Policies

        Accounting Basis
        The accompanying financial schedules have been prepared in conformity with National
        Science Foundation (NSF) instructions, which are based on a comprehensive basis of
        accounting other than generally accepted accounting principles. Schedules A-1, A-2,
        A-3 and A-4 have been prepared by William Marsh Rice University (Rice University)
        from the Federal Financial Reports (FFRs) submitted to NSF and Rice University’s
        accounting records. The basis of accounting utilized in preparation of these reports
        differs from generally accepted accounting principles. The following information
        summarizes these differences:

         A. Equity
             Under the terms of the awards, all funds not expended according to the award
             agreements and budgeted at the end of the award period are to be returned to
             NSF. Therefore, the awardee does not maintain any equity in the award and any
             excess cash received from NSF over final expenditures is due back to NSF.

         B. Inventory
             Minor materials and supplies are charged to expense during the period of
             purchase. As a result, no inventory is recognized for these items in the financial
             schedules.

         C. Equipment

             Equipment purchased with NSF funds is expensed at cost in the period during
             which it is purchased instead of being recognized as an asset and depreciated
             over its useful life. Accounting principles generally accepted in the United States
             of America require that equipment to be capitalized and depreciated over its
             useful life. As a result, the expenses reflected in the Schedules of Award Costs
             include the costs of equipment purchased during the period rather than a
             provision for depreciation. The capitalization and depreciation of the costs of
             equipment is reflected on Rice University’s own financial statements which are
             not subject to our audit.

             Except for awards with nonstandard terms and conditions, title to equipment
             under NSF awards vests in the recipient, for use in the project or program for
             which it was acquired, as long as it is needed. The recipient may not encumber
             the property without approval of the federal awarding agency, but may use the
             equipment for its other federally sponsored activities, when it is no longer needed
             for the original project.




                                             22
                           WILLIAM MARSH RICE UNIVERSITY
                              Notes to Financial Schedules

                                        (Continued)



Note 1:   Summary of Significant Accounting Policies (Continued)

          Income Taxes

          The University is a Texas non-for-profit corporation under Section 501(c)(3) of the
          U.S. Internal Revenue Code and has received rulings from the Internal Revenue
          Service and the Texas State Government granting it exemption from income taxes.

          The departure from generally accepted accounting principles allows NSF to properly
          monitor and track actual expenditures incurred by Rice University. The departure
          does not constitute a material weakness in internal controls.


Note 2:   Indirect Cost Rates

                                    Indirect
                                   Cost Rate
                                 For 10/01/04 –
           Award Number            09/30/09                           Base




                                                                             each
            EEC-0647452                                        .



            DGE-0504425




            HRD-0450363




                                            23
                             WILLIAM MARSH RICE UNIVERSITY
                                Notes to Financial Schedules

                                       (Continued)



Note 2:   Indirect Cost Rates (Continued)




              OISE-0530220

          *    Rice University had an F&A rate of    approved by the U.S. Department of
               Health and Human Services. However, Rice University only claimed      as
               Federal Share. The remaining unclaimed      was used as part of the cost
               share contributions.




                                            24
APPENDIX A – AWARDEE’S COMMENTS TO
               REPORT
                                            ~~
                                           RICE


January 25, 2011


Mayer                    P.C.
2301 Dupont Drive, Suite 200
Irvine, California 92612

Dear_

This letter provides Rice University's response to the draft findings of the NSF/orO audit
conducted of certain NSF awards made to Rice University, which we received
electronically on January 5, 2011. You asked for comments back by January 26, 2011. I
want to convey our appreciation for the professionalism and courtesy with which you and
your fellow auditors conducted this audit.

Our major substantive concerns are explained below. Technical edits in the narrative and
exhibits are addressed in Appendix A (attached).

Finding 1. Post-Subaward Fiscal Monitoring of Subawardees Should Be Improved

Response to Recommendation I:

While we agree that there are opportunities to improve the documentation of our policies,
procedures and monitoring steps, we respectfully disagree with the conclusion that this
finding represents a significant deficiency in internal control over financial reporting. We
request that, after reading our response, you remove the significant deficiency label. We
believe that the policies and procedures in practice during the period of the audit provided
reasonable assurance that Rice's subrecipients administered Federal awards in
compliance with laws, regulations and the provisions of contracts or grant agreements
and that performance goals were achieved, as specified in the OMB A-133 Compliance
Supplement, page 3-M-1. Steps taken to achieve this reasonable assurance included, but
were not limited to:

• The Office of Sponsored Research (OSR) performed risk assessments at the pre-award
stage .

• Principal Investigators (PIs) maintained regular contact with subawardees regarding
program activities.




              RICE UNIVERSITy-MS   93 . P.O. Box 1892 .   HOUSTON. TEXAS   77251-1892
  ALLEN CENTER, SUITE   425 ' • •  iillliiil••••III•••iilllillllliillllil•••••
• PIs, department administrators and Research and Cost Accounting (RCA) monitored
invoices and requested additional invoice SUppOlt documentation when deemed
appropriate. The audit team saw specific evidence of this when reviewing our award to
the University of Houston.

• RCA reviewed subrecipient OMB Circular A-l33 audits and certifications to ensure
that there were no findings related to Rice subawards. If there had been findings, Rice
would have followed up with the subawardees as required by OMB Circular A-l33 and
implemented additional monitoring steps as warranted.

Furthermore, we note that, even after an extremely comprehensive and detailed audit that
included a review of 10% of the costs incurred on these awards over periods that ranged
from three to five years and a site visit to the largest subawardee, the auditors identified
no questioned costs.

To put the materiality of Rice's subaward expenditures into proper perspective, during
the fiscal year ended June 30, 2010, Rice administered 116 subawards under Federal
agreements. Per our OMB Circular A-l33 audit report for fiscal 2010, Federal award
expenditures totaled over $83 million. Approximately $8.5 million of this amount was
spent by subawardees, including $1.7 million for NSF subawards. This $1.7 million
represented 6.1 % of the total $28 million in NSF expenditures in FY 2010. Subaward
recipients included 52 colleges and universities subject to OMB Circular A-l33 audits,
one not-for-profit entity subject to A-l33 audits, and 11 other entities not required to
complete anA-l33 audit. Expenditures through entities not subject to A-l33 were $1.2
million in fiscal 2010.

Hence, because of the procedures we have in place and our track record as described
above, we believe that the designation of significant deficiency is not warranted.
However, we agree that documentation ofthe subaward monitoring process can be
enhanced and we are taking action to formalize and strengthen the subrecipient
monitoring policy and procedures that were in place during the award period. Drafts of
these documents are presently under review.

The improved procedures will:

• Provide the Rice research community with additional guidance for subrecipient
monitoring and documentation, including examples of when additional monitoring or
oversight, such as obtaining and additional financial support and performance reports,
making site visits, or inquiring about program activities, might be warranted;

• Require that the risk assessment for each issued subaward be performed and
documented at appropriate intervals, in accordance with our formalized policy and
procedures; and




                                         Page 2 of6
• Require that, based on preaward and on-going risk assessment, appropriate subaward
and subrecipient monitoring techniques be selected and that decisions regarding the
techniques used be documented.

These improvements will strengthen the current subrecipient monitoring process at Rice,
which encompasses both pre- and post-subaward stages and includes the following:

At the pre-subaward and subaward stage
• OSR and the faculty maintain regular communication during the proposal and subaward
execution phases. Prior to issuing renewals or extensions of subawards, OSR receives
positive confirmation from the PI that programmatic goals are being met and that no
fiscal concerns have been identified.

• OSR conducts pre-subaward risk assessments, including obtaining OMB Circular A-
133 audit certifications and/or reports, although the assessments done during the audit
period were not documented using the risk analysis form currently in use. The vast
majority of the subawards Rice issues are to low risk, well-established universities with a
good reputation. In many cases, Rice has previously had successful experience with the
institution as a subawardee.

• In those situations where a subaward is made to other than a low risk university
subawardee, the subaward agreement contains additional terms as needed to address
potential financial risk identified as specific to the subawardee, such as requiring copies
of supporting documentation with invoices or providing for scheduled payments based on
milestones/deliverables.

• OSR regularly consults with RCA regarding invoicing SUppOlt documentation
requirements when negotiating agreements with organizations that do not require annual
OMB Circular A-133 audits.

At the post-subaward stage
• PIs maintain regular contact with their collaborators throughout the performance period,
which may include site visits to assess technical progress when appropriate. This on-
going contact assists the PIs in their review of the invoiced costs and allows them to
understand the subcontractor's environment and react to changes that could jeopardize
successful completion of the programmatic goals.

• Rice subawardees are required to provide the same or greater level of expenditure detail
than that normally required by the Federal agencies from their awardees.

• Invoice Review:
      1) RCA sends a written reminder to the PI with each subawardee invoice listing PI
          responsibilities when reviewing subrecipient invoices.
      2) The PI or hislher designee reviews and approves subawardee invoices before
          payment to insure that costs incurred are appropriate and reasonable in relation
          to the technical progress on the award and the budget.


                                         Page 3 of6
     3) If the PI or department administrator determines that a more detailed
        explanation of expenditures is needed, he/she may request a list of detailed
        transactions and/or supporting documentation. As indicated in the audit report,
        this option was exercised for the largest subaward that was audited and, as
        described by the PI during the interview with the auditors, on one occasion
        inappropriate charges were identified and a revised invoice was requested .

• Internal Control Review: The OMB Circular A-I33 Compliance Supplement requires
that awardees monitor subrecipient activities to provide reasonable (emphasis added)
assurance that the subrecipient administers Federal awards in compliance with Federal
requirements. As a part of our subawardee monitoring process, we rely on the OMB
Circular A-I33 audits performed at these institutions when assessing the internal controls
of our subawardees. We believe this to be both an appropriate and cost effective
monitoring method and in accordance with OMB Circular A-I33 requirements .

• Audit Review: RCA reviews OMB Circular A-133 single audit certifications submitted
by subawardees and/or the actual A-133 audit reports and/or their filings with the Federal
Audit Clearinghouse, as authorized in the OMB Circular A-I33 Compliance Supplement,
page 3-M-4. RCA reviews these documents to identify any findings or questioned costs.
If any are identified, RCA would follow up as appropriate, including notifying OSR of
findings on awards made by Rice (if any) so that any changes to the risk assessment
could be made and appropriate monitoring actions could be determined.

In summary, we believe that the policies and procedures in effect during the audit period
met the requirements ofOMB Circular A-I33 and did provide us with reasonable
assurance that Rice's subrecipients, the vast majority of whom are large universities that
operate within a stable business environment, administered Federal awards in compliance
with laws, regulations and the provisions of contracts or grant agreements and that
performance goals were achieved. We believe that documentation of the monitoring
activities could be better and we are taking steps to improve that in the future. However,
we do not believe that this lack of documentation could have resulted in material non-
compliance or improper expenditures of subaward funds by subawardees. Therefore, we
believe that this finding does not warrant classification as a significant deficiency.

Finding 2: Non-compliance with the Bayh-Dole Act and NSF Provisions on
Invention Disclosure and Patent Application

We agree with the finding.

Response to Recommendation 2(a): Rice has been working with an outside consultant to
ensure that our revised policies on patent application are adequate, comply with NSF and
federal regulations and are properly implemented. Internal training for Office of
Technology Transfer (OTT) staff was conducted in November 2009. A draft copy of the
revised procedures manual was provided to the auditor for review.




                                        Page 4 of6
Response to Recommendation 2(b): Rice agrees to take a proactive role to create training
to educate research personnel on federal awards with potential inventions regarding the
Bayh-Dole Act and NSF invention reporting and disclosure requirements. This will be
done by OTT staff. We anticipate offering the training beginning in the last quarter of
calendar 2011.

We appreciate this opportunity to review your report in draft form. Please let me know if
you have any questions about our response. We would be happy to discuss it with you.

Sincerely,




                                        Page 5 of6
                              Appendix A: Technical Edits

P 7, first paragraph, pre-subaward stage - The statement that the risk assessment is one-
time only ignores the on-going activities conducted during the audit period. Risk
assessment continued via A-133 repOlt reviews, invoice reviews and faculty input, such
as authorizing invoices and subaward increases. We view risk assessment as an on-
going, continuous process and not as a discrete action with a specific label.

Suggested revision: "This pre-subaward assessment is supplemented by reviews of
subawardee A-133 repOlts and invoices and by obtaining faculty input on performance
before incremental subaward funding is authorized."

P 7, third paragraph - we are not sure who might have said "we usually will not make a
subaward to a high-risk candidate". We might issue a subaward, but only if we can
identifY ways to mitigate the potential risks. The erroneous statement that the risk
assessment is performed on a one-time basis is repeated here.

Suggested revision: " .. .if a subaward candidate is assessed as high risk, they stated that
Rice will only make the subaward ifthe potential risks can be adequately mitigated. Rice
rarely makes subawards to high risk entities."

P 8, third paragraph - similar issue to the previous one. Rice does not issue subawards
only to low risk and well-established universities.

Suggested revision: " ... since Rice University predominately issues subawards to low
risk and well-established universities .... "

Notes to financial schedules, p 22, last paragraph - This seems to imply that Rice does not
comply with GAAP. We suggest adding: While the award expenditure schedules
appropriately show equipment purchases as expenditures, Rice University's financial
statements reflect the correct treatment of these purchases as capital assets depreciated
over their useful lives.




                                         Page 6 of6
APPENDIX B – PRIOR REVIEW AND AUDIT
              FINDINGS
                                                                                     APPENDIX B


PRIOR REVIEW AND AUDIT FINDINGS

NSF Desk Review 2006

The Desk Review Report states that “Although Rice University was able to articulate its
procedures for accounting for unallowable costs, it has not adequately documented those
policies and procedures so as to provide effective guidance for employees responsible for
administering NSF-funded awards.”

Status: Resolved. Based on our review, we noted that Rice University has established
accounting policies and procedures to account for unallowable costs to federal awards. These
policies and procedures are posted on the university’s website so as to provide effective
guidance for employees responsible for administering NSF-funded awards. Based on our
interviews with the PIs and program administrators for the four NSF awards we audited, they
are aware of such policies and procedures being posted on the university’s website.

Special account codes are set up to record all types of unallowable costs stated in OMB Circular
A-21 – Costs Principles for Higher Education Institutions. In addition, sensitive account codes
are set up for certain types of expenses which required special attention to ensure compliance
with the award agreement and budget. These types of expenses include travel expenses,
professional fees, equipment costs, subaward costs, administrative related costs, interest, fines
and bad debt costs. Once an expense item coded with these special account codes is entered
into the accounting system, Banner, it will be automatically routed to Research and Cost
Accounting (RCA) for special review and approval before the transaction could finally be posted
into Banner. If it is determined that the item is not allowable to the award, RCA will not allow the
transaction to be posted into the award but will record the transaction into the Other Institutional
Activities Unallowable Pool.

OMB Circular A-133 Single Audit FYE 06/30/07

Rice University’s OMB Circular A-133 single audit report for FYE 06/30/07 included a finding
stating that three out of the 30 equipment transactions tested did not have the “vests with” and
“condition” fields completed in the fixed asset system. The Property Assistant failed to input
such information and the Property Administrator failed to identify the omissions in his review.

Status: Resolved. The three pieces of equipment in question are not related to NSF awards.
Based on our review and test of control, we noted that Rice University has well established
policies and procedures on property management. We also noted that the fixed asset system of
Rice University maintains all the necessary information for each piece of equipment under the
four NSF awards we audited in accordance with OMB Circular A-110. Per review of Rice’
University’s single audit report for FYEs 06/30/08 and 06/30/09, the finding had been resolved
and no findings of the same nature were noted.
                                                                                 APPENDIX B


PRIOR REVIEW AND AUDIT FINDINGS

OMB Circular A-133 Single Audit FY 06/30/08

Rice University’s OMB Circular A-133 single audit report for FYE 06/30/08 included a
compliance finding stating that two out of the 33 equipment transactions tested had wrong
locations recorded in the fixed asset system and one item did not have an asset identification
tag. The departmental personnel did not follow the university’s procedures that require tags to
be affixed to the equipment and for location records to be updated when the equipment is
moved.

Status: Resolved. The three pieces of equipment in question are not related to NSF awards.
Based on our review and testing, we noted that Rice University has well established policies
and procedures on property management. We also noted that the fixed asset system of Rice
University maintains all the necessary information of each piece of equipment under the four
NSF awards we audited in accordance with OMB Circular A-110. Per review of Rice
University’s single audit report for FYE 06/30/09, the finding had been resolved and no similar
findings were noted. During our fieldwork, we performed physical observation on a sample of
equipment and reviewed the required identification asset tag and determined if the location
information in Rice University’s fixed asset system is accurate without exception.
APPENDIX C – EXIT CONFERENCE
                                                                             APPENDIX C


EXIT CONFERENCE


We conducted an exit conference on May 14, 2010 at Rice University in Houston, Texas. We
discussed preliminary findings and recommendations noted during the audit. Representing Rice
University were:

           Name                                    Title




Representing Mayer Hoffman McCann P.C. were:

           Name                         Title
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

             Internet
          www.oig.nsf.gov

            Email Hotline
            oig@nsf.gov

            Telephone
           703-292-7100



             Toll-free
          1-800-428-2189


               Fax
           703-292-9158


                  Mail
      Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
          Arlington, VA 22230
